<html>
<title> - TO STRENGTHEN IRAN SANCTIONS LAWS FOR THE PURPOSE OF COMPELLING IRAN TO ABANDON ITS PURSUIT OF NUCLEAR WEAPONS AND OTHER THREATENING ACTIVITIES, AND FOR OTHER PURPOSES; AND TO PROVIDE FOR THE APPLICATION OF MEASURES TO FOREIGN PERSONS WHO TRANSFER TO IRAN, NORTH KOREA, AND SYRIA CERTAIN GOODS, SERVICES, OR TECHNOLOGY, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
TO STRENGTHEN IRAN SANCTIONS LAWS FOR THE PURPOSE OF COMPELLING IRAN TO 
     ABANDON ITS PURSUIT OF NUCLEAR WEAPONS AND OTHER THREATENING 
ACTIVITIES, AND FOR OTHER PURPOSES; AND TO PROVIDE FOR THE APPLICATION 
 OF MEASURES TO FOREIGN PERSONS WHO TRANSFER TO IRAN, NORTH KOREA, AND 
  SYRIA CERTAIN GOODS, SERVICES, OR TECHNOLOGY, AND FOR OTHER PURPOSES

=======================================================================



                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 1905 and H.R. 2105

                               __________

                            NOVEMBER 2, 2011

                               __________

                           Serial No. 112-117

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
71-035                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1905, To strengthen Iran sanctions laws for the purpose of 
  compelling Iran to abandon its pursuit of nuclear weapons and 
  other threatening activities, and for other purposes...........     2
  Amendment in the nature of a substitute to H.R. 1905 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, Committee 
    on Foreign Affairs...........................................    85
  En bloc amendments to the amendment in the nature of a 
    substitute to H.R. 1905 offered by:..........................
      The Honorable Theodore E. Deutch, a Representative in 
        Congress from the State of Florida.......................   202
      The Honorable William Keating, a Representative in Congress 
        from the Commonwealth of Massachusetts...................   205
      The Honorable Ted Poe, a Representative in Congress from 
        the State of Texas.......................................   206
      The Honorable Edward R. Royce, a Representative in Congress 
        from the State of California.............................   208
  Amendment to the amendment in the nature of a substitute to 
    H.R. 1905 offered by the Honorable Howard L. Berman, a 
    Representative in Congress from the State of California......   213
H.R. 2105, To provide for the application of measures to foreign 
  persons who transfer to Iran, North Korea, and Syria certain 
  goods, services, or technology, and for other purposes.........   219
  Amendment in the nature of a substitute to H.R. 2105 offered by 
    the Honorable Ileana Ros-Lehtinen............................   259
  Amendment to the amendment in the nature of a substitute to 
    H.R. 2105 offered by the Honorable Howard L. Berman and the 
    Honorable Ileana Ros-Lehtinen................................   303

                                APPENDIX

Markup notice....................................................   306
Markup minutes...................................................   307
The Honorable Ron Paul, a Representative in Congress from the 
  State of Texas: Prepared statement on H.R. 1905................   309
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement on H.R. 
  1905 and H.R. 2105.............................................   311
The Honorable Dennis Cardoza, a Representative in Congress from 
  the State of California: Prepared statement....................   313
The Honorable Laura Richardson, a Representative in Congress from 
  the State of California: Prepared statement on H.R. 1905.......   315
TO STRENGTHEN IRAN SANCTIONS LAWS FOR THE PURPOSE OF COMPELLING IRAN TO 
     ABANDON ITS PURSUIT OF NUCLEAR WEAPONS AND OTHER THREATENING 
ACTIVITIES, AND FOR OTHER PURPOSES; AND TO PROVIDE FOR THE APPLICATION 
 OF MEASURES TO FOREIGN PERSONS WHO TRANSFER TO IRAN, NORTH KOREA, AND 
  SYRIA CERTAIN GOODS, SERVICES, OR TECHNOLOGY, AND FOR OTHER PURPOSES

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    Pursuant to notice, the committee meets today to consider 
two timely bills to address critical threats facing the United 
States.
    At the outset, without objection, all members may have 5 
days to submit remarks on either of today's bills for the 
record.
    I now call up the bill H.R. 1905, the Iran Threat Reduction 
Act of 2011.
    Ms. Carroll. H.R. 1905, to strengthen Iran sanctions laws 
for the purpose of compelling----
    Chairman Ros-Lehtinen. Thank you.
    Without objection, the bill is considered as read and open 
for amendment at any point.
    [H.R. 1905 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
        

    Chairman Ros-Lehtinen. In addition, without objection, the 
bipartisan amendment in the nature of a substitute, which was 
provided to your offices on Monday and which all members have 
before them this morning, is made the pending business of the 
committee, is considered as read, and is open for an amendment 
at any time.
    [The amendment in the nature of a substitute follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. I will now recognize myself for 
brief remarks on this measure, followed by the ranking member 
and then other members seeking recognition.
    Today, the committee is marking up legislation to address 
the threat posed by the Iranian regime to our Nation, to our 
interests, and our allies. One Congress after another have 
passed Iran sanctions bills only to see them progressively 
weakened during the legislative process, or not fully enforced 
by the executive branch. Some might wonder if it is worth doing 
at all.
    Well, yesterday, speaking in the so-called Iranian 
Parliament, the so-called President, Mahmoud Ahmadinejad, 
publicly admitted that sanctions against Iran were impacting 
his financial institutions, stating, ``Our banks cannot make 
international transactions anymore.'' But there is much more to 
be done. We must move quickly to tighten existing sanctions and 
add new and tougher ones, as we are going to do today.
    The Iranian regime's Achilles heel is its energy sector. As 
far back as 1995, former Under Secretary of State Peter Tarnoff 
stated, ``A straight line links Iran's oil income and its 
ability to sponsor terrorism and build weapons of mass 
destruction . . . and any private company that helps Iran 
expand its oil [sector] must accept that it is indirectly 
contributing to this menace.''
    The Iran Threat Reduction Act is designed to clamp new and 
tougher sanctions on Iran's energy sector, threatening the 
regime's existence if it refuses to halt its nuclear weapons 
program.
    Negotiations and concessions after concessions to the 
regime have only been met with contempt. For 15 years, foreign 
energy companies have continued to provide, through their 
investments in Iran's energy sector, the financial resources 
for the regime to continue to pursue its nuclear ambitions, its 
chemical and biological weapons program, and its sponsorship of 
international terrorism.
    Fifteen years of pleading, 15 years of concessions have 
only allowed the Iranian threat to steadily build. In its 
report earlier this year, the International Atomic Energy 
Agency all but stated outright that the evidence indicates that 
Iran is working on a nuclear weapons capability. We have wasted 
years, we have watched the threat develop, and now we must act 
before time runs out.
    I am happy to say that H.R. 1905 has 343 cosponsors from 
both sides of the aisle, including most members of this 
committee. Given that you are familiar with the introduced 
bill, I will briefly note some of the provisions of the 
amendment in the nature of a substitute.
    The amendment in the nature of a substitute amends Title I 
of the bill by including a requirement that all entities 
currently granted an exemption under the special rule terminate 
their activities 1 year from the date of the enactment; also, 
adding bartering to the list of prohibited services related to 
Iran's importation of refined petroleum; and requiring the 
President to impose sanctions on any person who purchases, 
subscribes to, or facilitates the issuance of Iranian sovereign 
debt.
    The changes to Title II include requiring the Secretary of 
State to issue guidelines describing goods, services, and 
technologies considered as sensitive technologies; and 
expanding the definition of ``foreign subsidiary'' in existing 
Executive orders.
    The amendment in the nature of a substitute sharpens Title 
III's intended impact on the Iranian Islamic Revolutionary 
Guard Corps, or IRGC, by adding prohibitions on conducting 
commercial or financial transactions or investment in entities 
controlled by the IRGC, sanctions against affiliates of the 
IRGC, and measures targeting foreign persons, entities, and 
foreign countries aiding the IRGC.
    Finally, Title VI is strengthened by prohibiting foreigners 
who engage in certain activities with respect to Iran from 
entering the U.S. and increasing the civil and criminal 
penalties under the International Emergency Economic Powers 
Act.
    Following the markup, I will seek speedy consideration of 
this legislation on the House floor. I hope that the Senate 
will act with similar urgency on this, or any bill actually, so 
that we can proceed to conference quickly and have these bills 
on the President's desk in time to hand the regime a nice 
holiday present.
    I now turn to my friend, the ranking member, for the 
remarks that he would like to make on this bill and the one 
other bill, as well. Mr. Berman is recognized.
    Mr. Berman. Well, thank you very much, Madam Chairman. And 
I apologize in advance for the length of this statement, but, 
first, I would like to begin by commending you and your staff 
for the hard work, the creativity, the cooperative spirit you 
have brought to our joint effort to produce a strong bill. I 
also thank members on both sides of the aisle for their efforts 
and ideas geared toward improving this bill and strengthening 
our overall sanctions regime on Iran.
    Madam Chairman, last year, the President signed into law 
our Comprehensive Iran Sanctions Accountability and Divestment 
Act, CISADA. This law provided the tools for the administration 
to impose strengthened sanctions against companies that support 
Iran's energy sector and against financial institutions that 
support Iran's Islamic Revolutionary Guard Corps.
    That bill has been effective in many ways. It has impeded 
Iran's access to international financial markets, as Iranian 
President Ahmadinejad acknowledged yesterday. And it has led 
every major Western energy company to draw down its Iran 
operations. It has also laid the groundwork for the EU to 
oppose tough sanctions.
    Yet, as I have said previously, nothing that we do or that 
the administration has done can be deemed truly effective until 
Iran ends its nuclear weapons program and stops supporting 
terrorism. And we know that Iran is continuing to increase its 
stockpile of low-enriched uranium and make progress in other 
ways toward a nuclear weapons capability. Accordingly, we must 
now seek to strengthen sanctions significantly.
    The bill we are marking up today, the Iran Threat Reduction 
Act, builds on past efforts by restricting the terms on which a 
company can pledge to end its work in Iran as an alternative to 
sanctions, expanding the types of activities that trigger 
Presidential investigations of potentially sanctionable 
activity, and widening the scope of sanctions on human rights 
abusers.
    I also want to make clear my view that nothing in this bill 
should limit in any way the President's ability to conduct 
diplomacy as he sees fit.
    For now, I would like to focus on two of the measures 
which, with the chairman's cooperation, I added to this 
amendment in the nature of a substitute. And then I would like 
to discuss briefly the amendment I plan on offering this 
morning.
    One of the measures I included in the substitute would 
restrict foreign subsidiaries of U.S. companies from engaging 
in business with Iran, making them subject to the same 
sanctions as their parent U.S.-based company. We wanted to do 
this in CISADA, but the other house wasn't too excited about 
that prospect. We hope now we can move forward on this. The 
notion that a foreign subsidiary of a U.S. company can conduct 
business that would be sanctionable in the U.S., conduct 
business that U.S. National security interests prevent the U.S. 
company itself from conducting, undermines our efforts to 
prevent Iran from achieving a nuclear weapons capability.
    We should never allow the slightest bit of doubt as to our 
seriousness of purpose regarding our efforts to prevent Iran 
from achieving a nuclear weapons capability. That is why we 
have to bring the behavior of foreign subsidiaries of U.S. 
companies into line with U.S. practice. When U.S. companies 
allow their foreign subsidiaries to sell Iran materials that 
are prohibited under U.S. law, those companies are violating 
the spirit of our sanctions regime. Once this bill becomes law, 
such behavior will be a violation of the letter of the law, as 
well.
    Another measure included in the substitute would impose 
sanctions on foreign commercial enterprises that do business 
with the Iran Revolutionary Guard Corps. In CISADA, we 
established a sanction regime for foreign banks that conduct 
business or facilitate sanctions transactions with the IRGC. 
Given the prominent role that the IRGC plays in the Iranian 
economy, we believe that sanction has had a significant impact. 
Now we need to widen the net to extend the prohibition to all 
commercial enterprises.
    Among its terrorist activities, we all know, is the recent 
plot to assassinate the Saudi Ambassador to the United States 
that was carried out by the Quds Force, which is the IRGC's 
special operations force. There should be consequences for this 
type of behavior, and I believe the international community 
must stand up against this threat. This measure will give 
foreign companies incentive to do that.
    And, finally, the amendment that I will be offering shortly 
would sanction the Central Bank of Iran if it is found to be 
engaged in facilitating WMD development, terrorism, or any type 
of support for the IRGC. In fact, I believe the Central Bank of 
Iran is not only engaging in those activities, I believe it is 
the ultimate engine of those activities. We will need to work 
with our global partners to make a sanction on the Central Bank 
as effective as possible. Our hope is that an economically 
challenged Iran will have less money to spend on weapons of 
mass destruction, terrorism, and other nefarious activities.
    By all accounts, Madam Chairman, the sanctions we passed 
last year have made life difficult for the Iranians. But oil 
prices remain high, a lifesaver of the Iranian economy. They 
continue to increase its stockpile of enriched uranium, and it 
is increasing at increasingly higher levels. The nuclear clock 
is moving ever closer to midnight. We can't nibble around the 
edges. We need a sanctions regime that is as bold as the 
Iranian nuclear program is brazen. Our legislation, fortified 
by sanctions on the Central Bank of Iran, is an important step 
in that direction.
    And I thank the chairman for the time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    And our speaking clock is ticking, as well, but I would 
like to recognize any member seeking recognition to speak on 
the underlying bill and the amendment in the nature of a 
substitute.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman. I would like to take 
a moment to thank you and Ranking Member Berman for your 
efforts to bring this bill together and move forward with such 
strong bipartisan support.
    For the past year, the historic turmoil in the Middle East 
threatens to leave one nation emboldened and empowered, Iran. 
Iran's surrogates have gained influence, with Hezbollah taking 
full control of the government in Lebanon, and Hamas, a 
terrorist organization responsible for perpetrating attacks 
that just this year have included the slaughter of children and 
their parents in Itamar and the direct targeting of a school 
bus in southern Israel, signing a unity agreement with Fatah.
    Increased terror attacks are only part of the Iranian 
framework for expanded influence. Through it all, Iran 
continues its illicit pursuit of nuclear weapons. In fact, the 
IAEA is expected to release a report this month providing 
greater detail on potential military dimensions of Iran's 
nuclear program. The IAEA director general publicly stated he 
is increasingly concerned about activities related to the 
development of a nuclear payload for missile.
    Additionally, we know the regime plans to triple its output 
of 20-percent-enriched uranium under the guise of powering a 
medical research reactor. The regimeis installing advanced 
centrifuges at an underground facility. It has shown time and 
again that it is not willing to grant international inspectors 
full access to all of its facilities. And we know that it is 
only a short jump from 20 percent to the 90-percent enrichment 
needed to produce a nuclear weapon. Iran continues to defy 
international law, continues to look for ways to evade 
sanctions, and continues to move closer toward weaponization.
    But U.S. and international sanctions have shown they can 
successfully bring great pressure on the Iranian economy. The 
regime has felt the squeeze of $60 billion of lost investments 
in its energy sector, and we must seize this opportunity to 
tighten even further the economic noose on Iran before the 
regime makes its ultimate move toward weaponization. This bill 
will close loopholes that have made it easier for companies to 
continue to conduct business with Iran. And, most importantly, 
it will take greater action in identifying those companies for 
all the world to see.
    Madam Chairman, I would like to thank you for working with 
me to include provisions of the Iran Transparency and 
Accountability Act in this bill. These new requirements put the 
onus of determining the extent and nature of a company's 
involvement in Iran on that company or its subsidiary if traded 
on U.S. stock exchanges by requiring the disclosure of all 
material business with Iran on SEC filings. This forced 
disclosure would ease the burden of proof on the State 
Department and would accelerate the imposition of sanctions on 
those companies. It will also give American investors the 
opportunity to decide whether their hard-earned money will go 
toward supporting countries and companies that choose to put 
profit over international security.
    This legislation also includes mandatory sanctions on those 
who perpetrate the most egregious human rights abuses. This 
regime's use of intimidation and excessive force to suppress 
its opposition must be stopped, and the United States must 
stand with the people of Iran in their quest for democracy and 
freedom. This bill helps to reaffirm our commitment to them.
    We must, Madam Chairman, continue to escalate the pressure 
on the Iranian regime. We must make it clear to not only the 
regime but to the Iranian people striving for democracy and 
human rights that we are serious, we are determined, and we are 
aggressive in our approach to halt Iran's illegal, 
destabilizing, and dangerous pursuit of weapons of mass 
destruction.
    Again, Madam Chairman, to you and to the ranking member, I 
thank you for your great work on this bill. And I yield back 
the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Deutch. And 
it was our honor to put your provisions in our bill, which 
further strengthens it. So thank you for your contributions.
    And I apologize to Mr. Smith, who--I did not recognize his 
baseball signals. I should have gone to him first. Mr. Smith of 
New Jersey is recognized.
    Mr. Smith. Thank you very much, Madam Chair. And, again, I 
want to congratulate you and the ranking member in bringing 
this extraordinarily important legislation before the 
committee, and hopefully it will become law.
    It is abundantly clear that Iran is a nation that pursues 
its interests with ruthless disregard of others, especially 
Israel, and without any kind of international cooperation. Over 
the last three decades, Iran has portrayed itself as a nation 
in need of nuclear power. With the cover provided by less-than-
diligent international officials and the assistance of nations 
eager to profit from Iran's passionate pursuit of nuclear 
capability, Iran has been furiously developing its nuclear 
capabilities. There are at least 17 confirmed or suspected 
nuclear processing, research, or storage sites reportedly 
operating in Iran as we consider this legislation.
    The recently foiled Iranian plot to assassinate the Saudi 
Ambassador to the U.S. and to bomb the Saudi and Israeli 
Embassies here in Washington demonstrates the urgent need to 
abandon the illusion of the effectiveness of more measured 
sanctions. Iran has been listed by the State Department as a 
State Sponsor of Terrorism since 1984, and there is ample 
evidence of Iranian support for attacks on American troops in 
Iraq.
    Under the circumstances, we can no longer depend on 
incremental ratcheting of pressure on Iran to halt its nuclear 
bomb ambitions. Iran poses too great a danger without nuclear 
weapons, and H.R. 1905 gives us further tools to protect our 
interests and our very livelihood and lives against a renegade 
nuclear Iran.
    Again, I thank you for this extraordinarily important 
legislation and yield back.
    Chairman Ros-Lehtinen. I thank the gentleman.
    Mr. Sherman is recognized.
    Mr. Sherman. Madam Chair, thank you for your work in 
bringing this bill, combining the best ideas from so many 
members and, of course, your own into a bill that will be 
another important step toward dissuading Iran from developing 
nuclear weapons. We have to create a circumstance where the 
regime in Tehran has to choose between its nuclear weapons 
program and regime survival.
    We owe a special debt of gratitude to the mullahs who run 
Iran because it is their incompetence and corruption that 
creates some risk to regime survival even at a time when oil is 
selling at historically high levels. And we owe a debt to the 
Iranian people, who came close to overthrowing this regime 
recently and who pose a real threat to its survival.
    But the steps we have taken to date and even the steps that 
we plan to take today are just steps along the road. The 
journey of many miles continues today with one more important 
step. We are going to have to do even more than this to cause 
this regime to have to fear for its survival.
    I want to thank the Madam Chair for co-sponsoring last year 
and then again this year my Stop Iran's Nuclear Program Act. 
And I hope that we can move that bill before the end of the 
year, as well, although so much of it is included in the bill 
we deal with today.
    That bill, both in its 2010 and 2011 versions, dealt 
extensively, as the bill before us today does, with the Iran 
Revolutionary Guard Corps. And, of course, the provisions are 
included today in Title III. That corps includes the Quds 
Force, which was identified as the masterminds behind the 
threats to Saudi diplomats here on our soil, but, just as 
importantly, plays a critical, some would say a majority, role 
in the Iran economy and in its nuclear program.
    In 2007, the Treasury Department took the important step of 
designating the IRGC for its proliferation activities. Some 80 
entities owned or controlled by the Revolutionary Guard Corps 
have also been designated. While this has caused some non-U.S. 
companies to shy away from business with those entities, some 
have continued to do so.
    In a bill that I introduced along with our chair, Ed Royce, 
and Dan Burton back in 2009, the Revolutionary Guard Corps 
Designation Implementation Act, which I think serves as the 
basis for Title III of today's bill, we make it clear that if 
you do business with the Revolutionary Guard Corps, you can't 
do business with the United States. This bill today, to the 
credit of its author, will tell, for example, Mercedes, ``If 
you sell trucks to the Quds Force, you are not selling trucks 
in the United States.''
    Like the Stop Iran's Nuclear Program Act of 2010 and then 
the new one of 2011, this bill deals with sovereign debt, the 
Halliburton loophole, sensitive Internet technologies, aircraft 
parts and repair, and an authorization for State governments to 
take action. Let me review those important provisions.
    It prevents companies from loaning money to Iran, whether 
in dollars or euros or any other currency. It tells the 
foreign-incorporated subsidiaries of U.S. multinational 
corporations that they, too, cannot do business with Iran.
    Senator Chuck Schumer and I pushed successfully in CISADA, 
section 106, to designate technologies that suppress the 
Internet as items that should not be sold to the Iranian 
regime. The State Department has failed to enforce that. This 
provision requires the State Department to provide clear 
guidance as to what kinds of technologies cannot be sold to 
Iran without being subject to U.S. sanctions.
    This bill prohibits aircraft parts and services to Iran. 
Their so-called civilian planes have been used for a variety of 
nefarious solutions, including resupplying the Assad's bloody 
suppression machine in Syria.
    The bill also allows State governments to take the actions 
in support of our sanctions against Iran, most significantly to 
deny insurance licenses to companies that conduct a host of 
sanctionable activities in Iran.
    This bill is an important first step. It includes many 
important provisions. We need to pass it into law as quickly as 
possible, and then we need to look at the next step.
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Sherman.
    Ms. Schmidt of Ohio is recognized.
    Mrs. Schmidt. Thank you, Madam Chairman. And I really want 
to applaud both sides for working on this very important 
measure.
    You know, when Ahmadinejad spoke to his government, he 
stated that the sanctions are impacting Iran's financial 
capabilities, especially in the international market. And this 
bill shows the importance of the U.S. sanctions as they exist, 
but it also points out the need for additional sanctions and 
the need to tighten language so Iran cannot find ways around 
these sanctions through friends on the international scene.
    Speaking in a single voice sends a clear message of what 
these sanctions are and how they are to operate. It also sends 
a voice of the potential danger of a nuclear Iran to the world, 
and it lessens their ability to improve their economy through 
international means.
    I encourage not only my colleagues here to vote for this 
but my friends on my side of the aisle in the House, the other 
side of the aisle in the House, and in the Senate, and the 
President to then sign it quickly, as soon as possible.
    I yield back my time.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Schmidt.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. I 
want to thank you personally for your leadership, your very 
strong leadership, on this, if America is going to be at peace 
and we are not going to find ourselves backed into a corner 
where we have to give up our freedom and may have to end up in 
a war 10 years from now, we need strong leadership. You are 
providing that today, Madam Chairman. Thank you.
    There is a country that, however, cannot be ignored when we 
are discussing how to pressure Iran to change its course, and 
that country that seems to be ignored so often in these debates 
is Communist China. This is because Communist China, of course, 
is the partner of so many American multinational corporations 
who don't want us to talk about the sins of China. Well, 
Communist China has been the foremost diplomatic and economic 
backer of the Tehran mullah regime, an increasingly active, as 
well, military ally of the Iranian mullah dictatorship.
    Well, to attain our goal of changing Iran's course, Beijing 
must be persuaded to change its course. Increasing sanctions by 
adding Iranian oil development and purchasing its oil exports 
have to be applied to China, and they will be with this 
legislation. Existing large-scale China-Iranian projects in the 
energy sector would be, with this legislation, stopped. The 
Chinese imports of oil from Iran increased 40 percent from 
January to August of this year compared to the same period last 
year. They have a very tangible relationship that is working 
against the purposes of a more peaceful world.
    We now ask the Obama administration to act on what we are 
imposing today. And let's just remember that, just a year ago, 
John Pomfret of The Washington Post reported that Robert 
Einhorn, the State Department special advisor for 
nonproliferation and arms control, had given the Chinese a 
``significant list'' of companies and banks that were working 
with Iran.
    By the way, when we are talking about Chinese companies, 
many of these companies we are talking about are owned by the 
People's Liberation Army, so it is part and parcel of the 
Chinese Government and their military. So, already, the 
administration has a list of Chinese companies that are already 
in violation. So we know what Beijing--and we have known what 
it is up to, yet nothing has been done to change that Chinese 
behavior. Indeed, China is increasing trade with Iran to offset 
the sanctions.
    In diplomacy, China continues to back Iran on the nuclear 
issue and, just recently, pressed the IAEA not to release 
damning information on the Iranian military nuclear research. 
China has given help to Iran both in its nuclear and missile 
program, so it provides Tehran with weapons that menace its 
neighbors and also delivery systems.
    So, by all means, we should be enacting the chairman's 
strengthened version of the Iran Threat Reduction Act, and I 
applaud her for it, but we must realize that these sanctions 
will be undercut by Beijing unless we are willing to stand up 
to Beijing and tell them that we are serious about this 
legislation and this task of making sure that the mullahs in 
Iran don't become a nuclear power.
    Unless we can convince the Communist Chinese regime by 
resolute action that they will face severe consequences if they 
continue to support Tehran, we can expect them to go about with 
business as usual. We should be watching out for the interests 
of our country, the national security of our country, and the 
long-term prosperity of the American people. And that means we 
are going to have so overcome the corporate influences here in 
Washington, DC, that are preventing us for standing up from 
human rights and taking the policies that we need to take in 
order to ensure that China doesn't threaten our security and 
our peace in the years to come.
    So, Madam Chairman, again, thanks for your leadership. We 
need to make sure that we remember that China is part of this 
problem. Thank you.
    Chairman Ros-Lehtinen. Amen. Thank you.
    We will now move to consider additional amendments to the 
underlying substitute amendment, as provided to your offices 
last night.
    I ask unanimous consent that the following bipartisan, 
noncontroversial amendments, which members have before them, be 
considered en bloc: Amendments 32, 33, and 34 from Mr. Deutch, 
enhancing the ``credible information'' definition, requiring 
publication of waivers, and requiring a report on divestment; 
Amendment 18 from Mr. Keating, adding Syria to the list of 
entities receiving material support from Iran; Amendment 190 
from Judge Poe that I drafted with him, as well, adding a 
finding and policy statement regarding Iranian activity and 
Camp Ashraf; and Amendment 60 from Mr. Royce, strengthening the 
aims of the State Department's Internet freedom strategy.
    [The amendments referred to follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. You should all have copies in your 
packet.
    I would like to recognize the authors of the amendments so 
that they can be recognized to explain their portion of the en 
bloc amendment, starting with Mr. Royce of California.
    Thank you, Mr. Royce.
    Mr. Royce. Thank you, Madam Chair. And I thank you and I 
thank the ranking member, as well, for your work on this very 
important legislation. And I also want to express my 
appreciation for your incorporation of my amendment here.
    This amendment nudges the administration to work closely 
with United States telecom and software companies within the 
OFAC licensing process so that Iranian democracy activists have 
better access to software to aid their organizing. This is an 
area that needs attention. And the amendment also spotlights 
foreign companies that are assisting Iranian jamming efforts, 
another issue that we have to deal with here.
    I also understand that Mr. Berman will be offering an 
amendment to strengthen the language on Iran's Central Bank. 
While many central banks around the world operate 
independently, Iran's Central Bank is, in fact, an arm of the 
regime and has assisted Iranian banks to sidestep U.S. 
financial pressure. At a Terrorism, Nonproliferation, and Trade 
Subcommittee hearing, experts recommended this. Mr. Berman's 
amendment pushes this forward, and it should be adopted.
    And thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Deutch is recognized to explain his amendment.
    Mr. Deutch. Thank you, Madam Chairman. I would like to 
thank you and Ranking Member Berman for your willingness to 
work to incorporate these three amendments into the 
legislation.
    Madam Chairman, all three are aimed at achieving the same 
results: Identifying the companies that continue to support the 
Iranian regime's illicit quest for nuclear weapons.
    Current law states that investigations into possible 
sanctions must begin upon the receipt of credible evidence. The 
Iran Threat Reduction Act aims to define what constitutes this 
credible information. My amendment will add to the list of 
credible evidence reports published by State and local 
governments.
    Madam Chairman, you and I are privileged to represent the 
State of Florida, a State that in 2007 became the first State 
in the country to divest its pension funds from companies 
supporting the Iranian regime's nuclear weapons program. In 
authoring the Protecting Florida's Investment Act, we went to 
great lengths to create a detailed process for identifying 
those companies doing business in Iran.
    As a result, the State Board of Administration in Florida 
publishes a quarterly report, which I have here, that is 
comprised of data from four external research providers, NGOs, 
Federal Government reports, company disclosures and SEC 
filings, investor relations Web sites, and industry 
publications.
    Additionally, the State board engages directly with the 
companies, requesting specific information about activities in 
Iran, and tracks such correspondence in its report. At the 
publishing of its last report on September the 20th, the 
Florida State Board of Administration had reviewed over 400 
companies and affiliates.
    Madam Chairman, I ask unanimous consent to have the Florida 
quarterly report placed in the record.
    Chairman Ros-Lehtinen. Without objection.
    [Note: The Florida State Board of Administration's 
quarterly report, ``Protecting Florida's Investments Act 
(PFIA),'' dated September 20, 2011, is not reprinted here but 
is available in committee records.]
    Mr. Deutch. Florida is not the only State government 
committed to preventing a nuclear-armed Iran. There are nearly 
20 other States with Iran divestment laws and countless 
municipalities.
    If a company appears on reports published by these State 
and local governments, particularly given the detailed process 
used to identify those companies and maintain an up-to-date 
list of scrutinized companies, the administration must take it 
seriously and must immediately commence an investigation. This 
amendment will ensure that these reports are considered 
credible evidence to trigger that investigation into possible 
violations of U.S. sanctions law.
    Also included, Madam Chairman, in the amendment package is 
a 180-day deadline for those companies on which the imposition 
of sanctions has already been waived pursuant to the special 
rule. In the fall of 2010, five companies were subject to the 
special rule: Total, Statoil, ENI, Royal Dutch Shell, and 
Inpex. This amendment will ensure that those companies have 
fulfilled their obligations to terminate business in Iran. It 
is well known that the Iranian energy sector is the main source 
of funding for the regime's nuclear weapons program. These 
companies must not prolong any technological services that 
assist the regime in the production of its financial lifeline, 
oil.
    And, lastly, Madam Chairman, the adoption of this package 
will require that the name of any company on which the 
President has chosen to waive the imposition of sanctions in 
the interest of national security, that that name be made 
public. The world must know that the U.S. is serious about 
using economic sanctions to prevent a nuclear-armed Iran. By 
simply publishing just the name of the company, we put others 
on notice, all around the world, that the U.S. is watching, we 
are investigating, and we are taking our responsibility in the 
international community seriously.
    Madam Chairman, I again would like to thank you and Ranking 
Member Berman for moving forward with this vital piece of 
legislation that reaffirms the United States' commitment to 
prevention a nuclear-armed Iran. And I yield back the balance 
of my time.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Deutch. And I 
thank you again for those valuable contributions to 
strengthening our bill. Thank you.
    Mr. Keating is recognized to explain his amendment.
    Mr. Keating. Thank you, Madam Chair. And I would like to 
thank you and the ranking member for your efforts in this very 
important bill.
    My amendment recognizes the Government of Syria as a 
recipient of material and political assistance by Iran. This 
bill already identifies Iran's relationship with armed militant 
groups of, you know, Iraq and Afghanistan, but it reaffirms 
Iran's support and assistance to Hamas and Hezbollah. But one 
entity missing from the bill, I believed, was the Government of 
Syria, who consistently enables Iran's support for the latter 
organizations.
    Syria is one, if not the most, of Iran's most strategic 
allies. The unrest that has unfolded across the country is one 
of great concern to Iran's tactical stability. Iran has openly 
supported the regime's violent crackdown on peaceful Syrian 
protestors, supplying Assad's proponents with equipment to 
repress the crowds and technology to monitor, track, and block 
the use of the Internet as a means of mobilization and 
coordination. In May of this year, Iran sent members of the 
elite Quds Force of the Iranian Revolutionary Guard Corps to 
assist in crushing the opposition--the very same forces 
involved in the plot to assassinate Saudi Arabia's Ambassador 
to the United States.
    This past summer, in a meeting between a high-ranking Quds 
Force official and Syria's deputy vice president of security 
affairs, Iran agreed to provide $23 million to Syria for the 
construction of a military base in order to better facilitate 
direct arms shipments.
    Iran President Mahmoud Ahmadinejad and Syrian Vice 
President al-Sharaa have reaffirmed the unity between their 
countries in their common position on the Palestinian issue and 
their intent to expand cooperation against Israel. Tehran and 
Damascus are well aware of the advantage brought by their 
relationship over the security of Israel. As mentioned, Syria 
serves as the gateway for shipments of weapons and military 
equipment from Iran to the open arms of Hezbollah in Lebanon. 
In June of last year, it was reported that a sophisticated air 
defense radar system, capable of intercepting Israeli air 
strikes, had been sent to Syria by Iran.
    I could go on and on, Madam Chairman. As we move forward 
with implementing and further restricting sanctions on Iran, 
one thing is important to understand: The relationship between 
Iran and Syria is a direct threat to the safety and security of 
Israel and democracy in the region. I therefore ask and 
appreciate the inclusion of this amendment in the en bloc 
amendments.
    And thank you. And I yield my time back.
    Chairman Ros-Lehtinen. Thank you, sir. We commend you for 
that amendment.
    I would like to turn now to Judge Poe to explain his 
amendment, which reaffirms our commitment to the security and 
the welfare of the residents of Camp Ashraf. Judge Poe?
    Mr. Poe. Thank you, Madam Chair.
    Some of the bravest Iranian dissidents are those that are 
willing to risk their lives to voice opposition to the current 
Ahmadinejad corrupt regime. Camp Ashraf in Iraq is full of 
these kinds of heroes. They are Iranians who love their country 
but have been forced to move because their own government does 
not tolerate anyone who disagrees with its own totalitarian, 
oppressive policies. They have been falsely imprisoned, 
tortured, and seen their family members murdered. They were 
forced to leave their homeland and flee to Iraq. Now they have 
applied to the UNHCR to be recognized as political refugees and 
are currently classified as asylum seekers.
    But the camp is in danger. Iraqi troops have attacked the 
camp on two separate occasions, killing dozens and wounding 
hundreds. Now the people at Camp Ashraf are under siege. Iraq 
says it wants to close the camp completely by December 31st 
before UNHCR can complete the process and recognize them as 
political refugees. There are photos and video of Iraqi 
soldiers already entering the camp in preparation for this. If 
history is any guide, it will mean another massacre.
    And the State Department needs to know that our best hope 
for regime change in Iran comes from the people of Iran 
themselves. We should publicly and vocally support a regime 
change by the freedom-loving people in Iran and the freedom-
loving people in Camp Ashraf. If we don't do a good job of 
supporting the opposition, the least we can do now is prevent 
the folks in Camp Ashraf from being massacred again.
    This amendment urges the Government of Iraq to not harm 
these freedom fighters and not return them to Iran, where they 
would face certain death, and not to close the camp before 
UNHCR can complete its process.
    We must remember, Madam Chairman, that 85 of these people 
that are in the camp are either U.S. citizens or permanent 
residents of the United States.
    I am thankful for the chairman and ranking member for their 
support of this important amendment. I yield back.
    Chairman Ros-Lehtinen. Thank you, Judge Poe.
    Hearing no further request for recognition, the question 
occurs on the en bloc amendment.
    All those in favor say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it, and the en 
bloc amendment is agreed to.
    I now would like to ask the ranking member if he has an 
amendment at the desk.
    Mr. Berman. Yes. Madam Chairman, I have an amendment co-
sponsored by you at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to the amendment in the nature of a 
substitute to H.R. 1905, offered by Mr. Berman of California 
and Ms. Ros-Lehtinen of Florida. In section 401, strike 
subsection (b) and insert the following----
    Chairman Ros-Lehtinen. Thank you.
    Without objection, the amendment is considered read.
    [The amendment to the amendment in the nature of a 
substitute follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ros-Lehtinen. The ranking member is recognized to 
explain his amendment as the amendment is being handed out. Mr. 
Berman?
    Mr. Berman. Thank you very much, Madam Chairman.
    Mr. Royce made reference to this amendment.
    The Central Bank of Iran is the linchpin of Iran's 
financial system. It is Iran's only remaining link with the 
global banking system. Its opaque financial activities have 
generated strong suspicions that it almost certainly plays a 
critical role in funding Iran's nuclear and ballistic missile 
programs along with the various activities of the Iranian 
Revolutionary Guard Corps.
    And yet, the Central Bank has not been designated under the 
Treasury Department's sanctions. As a result, the Central Bank 
is not included in our Specially Designated Nationals List, 
which functions as a global watch list.
    My amendment would require the President to make a 
determination within 30 days after enactment whether the 
Central Bank is involved in any of the four areas: Supporting 
Iran's WMD or missile programs, including proliferation of WMD 
to other governments; financing Iran's procurement of advanced 
conventional weapons; providing financial services for the 
IRGC; or furthering Iran's support of international terrorism.
    I believe an objective determination is likely to show that 
the Central Bank of Iran is indeed involved in one or more of 
these activities. If the President determines that the Central 
Bank of Iran is indeed involved in any of these activities, 
then he would be required to apply sanctions under the 
International Emergency Economic Powers Act, IEEPA. That would 
mean that any foreign bank involved in significant transactions 
with the Central Bank of Iran would also be blocked from the 
U.S. economy. The amendment would thus force banks to make a 
choice: Either terminate transactions with the Central Bank or 
risk the loss of your business in the United States.
    This amendment would be a substitute for section 401(b) of 
the underlying markup text. That section calls for a report to 
Congress on the Central Bank but doesn't require any action 
taken by the U.S. Government.
    The stakes could not be higher. Iran is making inexorable 
progress in enriching uranium, it is experimenting with nuclear 
warhead design, it is developing ballistic missiles, it is 
building up its inventory of advanced conventional weapons, and 
it continues to support international terrorism. The Central 
Bank of Iran is widely suspected of supporting all of these 
activities, and it is time that the bank and those who work 
with it are called to account.
    This amendment improves the committee's bill, and it would 
vastly strengthen U.S. policy toward Iran. And I urge my 
colleagues to vote for it.
    Chairman Ros-Lehtinen. Yes, thank you, Mr. Berman. I also 
ask our colleagues to support this essential amendment to our 
bill.
    Hearing no further requests for----
    Mr. Rohrabacher. Madam Chairman?
    Chairman Ros-Lehtinen. Mr. Rohrabacher?
    Mr. Rohrabacher. Number one, I want to thank Mr. Berman for 
this very important amendment, which, frankly, is a policy we 
should have been involved with all along. I do not understand 
how we have let the banks off the hook on things like this.
    I will use this opportunity to underscore what Judge Poe 
brought up a few moments ago about the situation in Camp 
Ashraf. Let me note that the residents of Camp Ashraf are 
totally vulnerable. They are disarmed at the request of the 
United States military. They are totally vulnerable, and they 
have already endured one massacre.
    We keep pushing on this end for a redesignation of the MEK, 
which are the residents of Camp Ashraf, who are currently 
designated by our Government as a terrorist organization. That 
designation is undermining the efforts to relocate these 
people. Before we get a chance to do this, if we don't relocate 
them, and they end up being massacred again, it will be because 
our Government has not acted.
    I want to make sure that we are on record today, that it is 
made very clear, that unless the MEK is redesignated, as has 
happened throughout Europe and other countries, redesignated 
not as a terrorist organization, and it is followed by another 
massacre of these unarmed people, the blood of these innocent 
people will be on the hands of our State Department and our 
Government. When the blood is in the sand and people say, who 
is at fault, they should look to Washington, DC, if we refuse 
to take the steps now that are necessary for their relocation.
    This is very serious. We are talking about over 30 people 
have been murdered and hundreds more wounded. These are unarmed 
people who are basically there because of American policy. So I 
would underscore what Judge Poe stated today.
    And we had the Secretary of State with us just a few days 
ago, committing that whatever can be done will be done as soon 
as they can do it. Well, let's see some action. If not, again, 
our State Department bureaucracy will have the blood of these 
innocent people on their hands if there is another massacre.
    Thank you very much, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Rohrabacher.
    Mr. Duncan is recognized.
    Mr. Duncan. Thank you, Madam Chairman.
    Just real briefly, I will speak in support of this 
amendment because I want to remind the committee and the 
Members of Congress that are following this interesting markup 
that, just a few weeks ago, it was very evident that the Quds 
Force, the Iranian Revolutionary Guard, was involved in a 
terror plot that was going to take place on U.S. soil, in this 
very city, in the assassination attempt of another sovereign 
nation's Ambassador to the United States.
    So this is the right level of sanctions at this point in 
time against the Central Bank of Iran, and it sends the right 
signal to the Quds Force and Hezbollah and others that we are 
not going to just take that issue lightly. And I appreciate Mr. 
Berman for bringing this amendment up.
    I yield back.
    Chairman Ros-Lehtinen. As do I. Thank you.
    Hearing no further request for recognition, the question 
occurs on the Berman amendment.
    All those in favor say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it, and the 
amendment is agreed to.
    Are there any other amendments to the Iran Threat Reduction 
Act?
    Hearing no further amendments, the question is on agreeing 
to the bipartisan amendment in the nature of a substitute, as 
amended.
    All those in favor say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it, and the 
amendment in the nature of a substitute, as amended, is agreed 
to.
    Without objection, the underlying bill, H.R. 1905, as 
amended, is agreed to.
    And I now move that the chair be authorized to seek 
consideration of the measure by the House under suspension of 
the rules.
    All those in favor say aye.
    All those opposed, no.
    The ayes have it, and the motion is agreed to.
    Without objection, the bill, as amended, will be reported 
as a single amendment in the nature of a substitute 
incorporating the amendments adopted by the committee. And the 
staff is directed to make technical and conforming changes.
    I now call up the bill H.R. 2105, the Iran, North Korea, 
and Syria Nonproliferation Reform and Modernization Act of 
2011. Without objection, the bill is considered as read and 
open for amendment at any point.
    [H.R. 2105 follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. In addition, without objection, the 
bipartisan amendment in the nature of a substitute, which was 
provided to your offices on Monday, and which all members have 
before them, is made the pending business of the committee, is 
considered as read, and is open for amendment at any point.
    [The amendment in the nature of a substitute follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. I now recognize myself for remarks 
on the measure.
    Today, we are considering H.R. 2105, the Iran, Syria, and 
North Korea Nonproliferation Modernization and Reform Act, for 
which there is an amendment in the nature of a substitute.
    The legislation has a finer focus than ITRA's broad reach, 
namely on those persons or countries which are directly 
assisting Iran's efforts to acquire or develop weapons of mass 
destruction, especially its nuclear program, as well as 
missiles and other advanced conventional weapons.
    It is not possible to stop Iran's nuclear weapons program 
without targeting its nuclear program as a whole, because there 
is no safe dividing line between those activities and 
facilities that are purely peaceful and those which are 
military-related. Even seemingly safe material, such as low-
enriched uranium, can be used in radiological devices. So we 
have no choice but to target the entire sector, which, I might 
add, is the subject of the U.N. Security Council resolutions, 
as well, which call for a halt to Iran's entire nuclear 
program.
    Those penalties necessarily must include prohibiting U.S. 
nuclear cooperation with countries which either assist or allow 
their citizens to assist Iran's WMD program. The amendment in 
the nature of a substitute which is being offered adds some new 
and important measures, including changing the reporting 
requirement from every 6 months to every 4 months and expanding 
the range of actions covered; also, denying an exemption to 
those assisting the acquisition by Iran, North Korea, or Syria 
of destabilizing amounts of conventional weapons; and 
tightening the prohibition on landing rights in the U.S. 
regarding vessels that have visited ports in Iran, North Korea, 
or Syria in the preceding 2 years.
    I believe this amendment strengthens the legislation, and I 
urge my colleagues to vote for its adoption.
    And I now turn to my friend, the ranking member, for 
remarks that he would care to make.
    Mr. Berman. Thank you, Madam Chairman.
    The Iran, North Korea, and Syria Nonproliferation Sanctions 
Act--we call it ``INKSNA''--was initiated by Chairman Ben 
Gilman, and it forced the United States Government to review 
all intelligence or credible evidence regarding sensitive 
transfers of goods and services related to WMD missiles or 
conventional weapons and made such transfers sanctionable acts.
    While the reports required by INKSNA are 2 years behind 
schedule, an ongoing problem that has plagued successive 
administrations, we have frequently seen new rounds of 
sanctions issued against companies and individuals who are more 
interested in making a buck than in protecting the global 
security environment.
    The specific details of sanction transfers are classified, 
but press reports indicated INKSNA sanctions have been imposed, 
for example, on Chinese entities for selling carbon fiber and 
pressure transducers--did you hear that, Mr. Rohrabacher--which 
would assist Iran in building more advanced gas centrifuges. 
Multiple Russian, Chinese, and even the European weapons 
exporters have been sanctioned, presumably for the transfer of 
arms to Iran and Syria, and Chinese chemical supply companies 
have been repeatedly sanctioned.
    This bill, as amended by the amendment in the nature of a 
substitute, strengthens INKSNA by making sensitive transfers 
subject to the full range of sanctions enacted under CISADA. It 
also extends the waiver of INKSNA prohibitions on payments to 
Russia for ferrying U.S. Astronauts to the International Space 
Station to 2016 from until the end of 2012.
    I would like to change the chairman for agreeing to support 
an amendment to address my concerns about the way the 
underlying bill deals with Russia. I have a number of other 
ideas about ways to strengthen INKSNA, dealing with expediting 
the delayed reports and some other issues. But rather than--I 
look forward to working with the chairman on these 
strengthening provisions as the process goes forward.
    And I support the bill and urge my colleagues to do the 
same.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman.
    I understand that Mr. Rohrabacher of California would like 
to engage in a colloquy regarding a section of this legislation 
regarding payments to Russians. And I would like to recognize 
Mr. Rohrabacher at this time.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    And I thank the ranking member for being so diligent about 
the Chinese threat, as well. Thank you.
    Madam Chairman, as you are aware, for several years 
American firms have been encouraged to develop new commercial 
cargo and new crew transportation services to the International 
Space Station; this is so we will not be totally dependent on 
Russia for those transportation services now that the space 
shuttle has been retired.
    As a senior member of the Science Committee, I have been 
following these events very closely. Some of these new services 
that we are developing here will be using some Russia hardware 
in their rockets, but the total amount of money flowing to 
Russia overall will be greatly reduced if we have American 
commercial providers giving us the services that we now rely 
totally on the Russian system for.
    This legislation still bars any transfer of funds to those 
companies which proliferate, even though there will be some 
Russian hardware involved in those commercial companies that 
will soon be going on the market to be offering their services 
to the International Space Station.
    I would request a clarification. Is it the intent of the 
chair that any portion of this legislation to stop NASA or 
other Federal agencies from purchasing services from American 
firms even as they use some of the technologies within their 
own rockets from companies in Russia so long as those Russian 
companies are not proliferating?
    Chairman Ros-Lehtinen. Well, I thank the gentleman for the 
opportunity to clarify this point regarding purchasing those 
services from American sources.
    Not only does no provision in this legislation have that 
purpose or effect, but you and I are in full agreement that the 
U.S. should make every effort to purchase those services from 
domestic sources as soon as possible. And to that end, to the 
maximum extent possible, any reliance on Russian sources of any 
type should be ended.
    Mr. Rohrabacher. Thank you very much. So we are minimizing 
the actual use of Russian technology, maximizing America's 
developed technology. Thank you for the clarification.
    What I would like to propose today is that the chair, the 
ranking member, and I, working together with the Science 
Committee--which, as I say, I am a senior member of the Science 
Committee--and that we work together as this bill goes to the 
floor to further perfect this language so that NASA is 
encouraged to accelerate these commercial services, as compared 
to being totally reliant on the Russian Government. And, in 
that matter, we will encourage the growth of jobs in the United 
States and increase our overall nonproliferation leverage over 
Russia's Government.
    Chairman Ros-Lehtinen. I thank the gentleman. And I assure 
you that I will work with the member and with the ranking 
member and others, including consulting with our colleagues on 
the Science Committee, to achieve our nonproliferation and 
space goals more effectively. And I thank the gentleman for 
raising these important issues.
    Mr. Rohrabacher. Thank you.
    Chairman Ros-Lehtinen. Do other members seek recognition on 
the underlying bill?
    Mr. Sherman is recognized.
    Mr. Sherman. Thank you. I want to commend you for putting 
forward what is one of the toughest nonproliferation bills ever 
to come before this committee. I want to thank you for the 
opportunity to be the lead Democratic cosponsor.
    I commend you for requiring reports every 4 months. Both 
the last administration and this administration have been 
somewhat tardy in producing the reports. And I think by 
shortening the time period and requiring three reports a year, 
we are underlying the fact that we expect to get these reports 
and expect to get them on time.
    The U.S.-China Economic and Security Review Commission 
identified a loophole in current law that arguably exempts from 
sanctions the Chinese companies that are providing short-range 
anti-naval cruise missiles to Iran and perhaps others included 
in this bill. And I think it is important, especially for the 
protection of our naval crews, that that be included in this 
sanctions regime.
    Finally, as you know, Madam Chairman, for so many years I 
have been working to sanction those who would sell uranium 
mining equipment and technology to Iran. It is critical that we 
stop Iran's nuclear program. It is just as critical that even 
if they have enough uranium for one or two devices, that we 
prevent them from getting any more. That is why we need to work 
around the world to stop Iran from buying yellow cake or 
uranium in any form, but it is critically important that we 
prevent Iran from being able to mine uranium within its own 
territory. And this bill would go as far as any to accomplish 
that goal.
    So, with that, I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Sherman.
    I would like to point out that it is a delight to have Ms. 
Wilson back with us and that you are feeling good, you are 
looking good. Welcome back, Frederica. We missed you.
    Ms. Wilson of Florida. Thank you.
    Chairman Ros-Lehtinen. Do any other members seek 
recognition to speak on the underlying bill, the amendment in 
the nature of a substitute?
    Do any other members have amendments?
    Mr. Berman does. The clerk will read the amendment.
    Ms. Carroll. Amendment to the amendment in the nature of a 
substitute to H.R. 2105, offered by Mr. Berman of California 
and Ms. Ros-Lehtinen of California. Page 16, line 12, strike 
``and.'' Page 16----
    Chairman Ros-Lehtinen. Thank you. We will consider the 
amendment as having been read.
    [The amendment to the amendment in the nature of a 
substitute follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Ros-Lehtinen. And Mr. Berman is recognized to 
explain his amendment while our wonderful colleagues give out 
copies. Thank you.
    Mr. Berman. Thank you very much, Madam Chairman.
    This amendment would simply eliminate the specific 
reference to Russia and would exempt the Bushehr reactor, so 
long as and only if it is not used for Iran's nuclear weapons 
program, from sanctions under this bill.
    Just to be clear, the amendment would not exempt future 
civilian power reactors, nor would it prevent Russia from being 
sanctioned like any other country if they engage in 
sanctionable activity.
    I urge my colleagues to support the amendment.
    Chairman Ros-Lehtinen. I also do support this. I would like 
to thank the ranking member for his amendment and for working 
with us right up until the gavel went down to draft that 
agreeable language.
    I support this amendment and would like to ask unanimous 
consent that it be considered adopted.
    Without objection, so ordered.
    Do any other members seek recognition?
    Seeing no further requests for recognition, the question is 
on agreeing to the bipartisan amendment in the nature of a 
substitute, as amended by Mr. Berman.
    All those in favor say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it, and the 
amendment in the nature of a substitute, as amended, is agreed 
to.
    Without objection, the underlying bill, H.R. 2105, as 
amended, is agreed to.
    And I now move that the chair be authorized to seek 
consideration of the measure by the House under suspension of 
the rules.
    Mr. Berman. Madam Chairman?
    Chairman Ros-Lehtinen. Yes? Mr. Berman is recognized.
    Mr. Berman. Could I add a unanimous consent request for 
general leave for Members of the House to insert statements?
    Chairman Ros-Lehtinen. Without objection, so ordered.
    All those in favor say aye.
    All opposed, no.
    The ayes have it, and the motion is agreed to.
    Without objection, the bill, as amended, will be reported 
as a single amendment in the nature of a substitute 
incorporating the amendments adopted by our committee. And the 
staff is directed to make technical and conforming changes.
    I want to thank all of the members and especially the 
staff, this hardworking, bipartisan staff, for the work and the 
cooperation that went into today's markup.
    These are important bills. We are going to change history. 
We are going to hold the executive branch accountable and make 
them do the right thing.
    Having concluded our business, the committee stands 
adjourned. Thank you, ladies and gentlemen.
    [Whereupon, at 11:10 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<n-iden-3>a<brit-pound><script-l> stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright>a<natural><star><pound><check>a 
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 <F-dash>\<Register><careof><star><star>a<natural><star>s<pound><Rx> 
                      stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
